          National Science Foundation 	    4201 Wilson Boulevard        Arlington, Virginia 22230
                                        Office of Inspector General


DATE:             February 18, 2014

TO:               Dr. Cora Marrett,
                  Director (Acting), National Science Foundation

FROM:             Dr. Brett M. Baker
                  Assistant Inspector General for Audit

SUBJECT: 	 Federal Information Security Management Act FY 2013 Independent Evaluation
           Report, Report Number 14-2-003

This memorandum transmits CliftonLarsonAllen LLP’s (CLA) Federal Information Security
Management Act of 2002 (FISMA) FY 2013 Independent Evaluation Report. In accordance
with Office of Management and Budget (OMB) Memorandum M-14-04, FY 2013 Reporting
Instructions for the Federal Information Security Management Act and Agency Privacy
Management, we previously provided the Inspector General Section of NSF’s FY 2013 FISMA
Report, which was submitted through the OMB automated reporting tool on December 2, 2013.

CliftonLarsonAllen’s Independent Evaluation Report includes eight new findings as follows:

          USAP needs to improve controls over policies and procedures.
          USAP needs to improve configuration management controls.
          USAP needs to complete MOUs/ISAs General Support System Local-Area Network
           (GSS LAN) and Enterprise Business System (EBS) interconnections.
          USAP needs to improve timeliness of system remediation based on scan results.
          USAP needs to improve account management controls.
          USAP needs to improve assessment and authorization controls.
          NSF Security Assessment Reports (SARs) need to identify consistently all assessed
           risks.
          NSF needs to address weaknesses in role-based IT security awareness and training.

The report also includes 11 previous findings, as follows:

         The USAP “Advanced Revelation” suite of applications needs to be replaced.
         USAP needs to develop, document, and implement a disaster recovery plan for its
          Antarctica Operations at its Denver data center.
         NSF needs to remove timely the information technology accounts for separated
          employees and contractors.
         USAP needs to review its System Security Plan for consistency with NIST requirements.
         USAP needs to enforce NSF’s password and account management policies at USAP.
         NSF needs to address weaknesses in its IT accreditation packages.
         NSF needs to address weaknesses in its IT identification and authorization controls.
         NSF needs to address weaknesses in its IT configuration management controls over
          baseline conformance.
         NSF needs to address weaknesses in its IT configuration management controls over
          ACM$ Change Management.
         NSF needs to address weaknesses in the NSF and USAP Incident Response program.
         NSF needs to improve controls over IT account management.

Please note that this year’s Independent Evaluation Report includes summarized versions of
findings reported in a separate IT Management Letter (dated December 12, 2013) prepared in
conjunction with CLA’s audit of NSF’s FY 2013 financial statements, and being transmitted
under separate cover. CLA considers the management letter findings relevant to the FISMA
report since the specific conditions identified for NSF’s financial systems are also covered by
FISMA.

The Independent Evaluation was performed in conjunction with the annual audit of NSF’s
financial statements. A draft of the Independent Evaluation Report was previously submitted to
your staff and their comments were considered in preparing this final report.

In accordance with OMB Circular A-50, on Audit Follow-Up, we request that NSF submit a
written corrective action plan to our office within 60 days of the date of this memorandum to
address the recommendations in the Independent Evaluation. This corrective action plan should
identify specific actions your office has taken or plans to take to address each recommendation
along with the associated milestone date. We are available to work with your staff to ensure the
submission of a mutually agreeable corrective action plan.

We appreciate the courtesies and cooperation extended to CliftonLarsonAllen LLP during the
evaluation. If you or your staff has any questions, please contact Tom Moschetto, Director,
Financial and IT Audits at (703) 292-7398, or me at (703) 292-2985.


Attachment

cc:       Dan Arvizu, Chair, National Science Board
          G.P. Peterson, Chair, Audit and Oversight Committee 

          Kathryn Sullivan, Senior Advisor, OD 

          Eugene Hubbard, Director, OIRM 

          Amy Northcutt, Chief Information Officer 

          Roger Wakimoto, Assistant Director, GEO 

          Kelly K. Falkner, Director, PLR 

          Martha Rubenstein, Director and CFO, BFA 

          Susanne LaFratta, Senior Advisor, PLR 

           NATIONAL SCIENCE FOUNDATION



FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA)



        2013 INDEPENDENT EVALUATION REPORT




                  December 12, 2013
                                                                      CliftonLarsonAllen LLP
                                                                      www.claconnect.com




Ms. Allison Lerner
Inspector General
National Science Foundation
4201 Wilson Boulevard
Arlington, Virginia 22230

Dear Ms. Lerner:

We are pleased to provide the FY 2013 FISMA Independent Evaluation Report. The report
details the results of our review of National Science Foundation (NSF)'s information security
program. FISMA requires Inspectors General to conduct annual evaluations of their
agency’s security programs and practices, and to report to OMB on the results of their
evaluations. The Office of Management and Budget (OMB) Memorandum M-14-04 (“FY
2013 Reporting Instructions for the Federal Information Security Management Act and
Agency Privacy Management”) provides this year’s instructions for meeting the FISMA
reporting requirements.

We separately provided the Fiscal Year (FY) 2013 Office of Inspector General (OIG) response
to Memorandum M-14-04, based on our independent evaluation as of September 30, 2013 and
subsequent review through the date of the report of documentation supporting the security
program performance statistics reported by NSF management, and review of the Foundation’s
Plans of Action and Milestones (POA&Ms). In preparing our responses, we collaborated closely
with NSF management and appreciate their cooperation throughout this effort.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards (GAGAS). Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

NSF management has provided us with a response to this 2013 FISMA Independent Evaluation
Report, which is presented in Exhibit A. We did not audit management’s response and,
accordingly, do not provide any conclusion on it.

This report is issued for the restricted use of the Office of Inspector General, the management of
NSF, the National Science Board and its Audit & Oversight Committee, and the Office of
Management and Budget, and is marked Sensitive But Unclassified.

We appreciate the opportunity to assist your office with these reports. Should you have any
questions, please call George Fallon at (301) 931-2050.



a
Calverton, Maryland


December 12, 2013 



                                                i
                                                     TABLE OF CONTENTS



                                                                                                                                      Page


TRANSMITTAL LETTER ....................................................................................................... i


I.    EXECUTIVE SUMMARY ................................................................................................ 2


II.   BACKGROUND.................................................................................................................... 3



III. OBJECTIVES ........................................................................................................................... 4



IV. SCOPE AND METHODOLOGY .............................................................................................. 4



V.    DETAILS OF RESULTS .......................................................................................................... 5


                A. Prior Year Results .................................................................................................... 5 


                B. Current Year Results ............................................................................................... 6 


VI. FINDINGS AND RECOMMENDATIONS ............................................................................... 7



VII. OTHER INFORMATION COMMUNICATED TO MANAGEMENT ................................ 21



VIII. EXHIBIT A – AGENCY COMMENTS ........................................................................... 22






                                                                      1


I.    EXECUTIVE SUMMARY            

Title III of the E-Government Act (Public Law No. 104-347), also called the Federal Information
Security Management Act (FISMA), requires agencies to adopt a risk-based, life cycle approach
to improving computer security that includes annual security program reviews, independent
evaluations by Inspectors General (IG), and reporting to the Office of Management and Budget
(OMB) and the Congress. It also codifies existing policies and security responsibilities outlined
in the Computer Security Act of 1987 and the Clinger-Cohen Act of 1996.

Based on the results of our Fiscal Year (FY) 2013 independent evaluation, we determined that
the National Science Foundation (NSF) has an established information security program and
has been proactive in reviewing security controls and identifying areas to strengthen this
program.

The FY 2012 Independent Evaluation Report included eight findings – four of the findings were
from FY 2010 and earlier, and three of these remain open. Two of these three findings relate to
NSF’s United States Antarctic Program (USAP) operating environment and disaster recovery
plans. NSF continues to develop plans to correct these weaknesses now that the new Antarctic
Support Contractor has completed the transition to replace its predecessor. The remaining
reissued prior year finding relates to the need for NSF to ensure prompt revocation of user
access upon termination. The finding related to the risks to security associated with NSF’s
overall network topology has been closed.

The other four findings in the FY 2012 report include two that have been closed related to patch
management and the need to include required elements in C&A documentation. The two that
are being reissued as repeat findings, both for USAP, include the need to update System
Security Plans to be consistent with National Institute of Standards and Technology (NIST)
requirements, and to enforce NSF password and account management policies more
consistently at USAP.

We are reporting eight new FISMA-related findings in FY 2013, six for USAP and two for NSF:

     		 13-01: USAP - Policies/procedures documentation (availability, completeness, accuracy)

     		 13-02: USAP - Configuration management (change management)

     		 13-03: USAP - Assessment and authorization (MOUs/ISAs)

     		 13-04: USAP - Risk assessment (scanning procedures)

     		 13-05: USAP - Access controls (account management)

     		 13-06: USAP - Assessment and authorization (risk understanding and acceptance)

     		 13-07: NSF - Assessment and authorization (Security Assessment Reports)

     		 13-08: NSF - Weaknesses in NSF Role-based IT Security Awareness and Training
         (Note: Finding 13-08 is drawn from our Management Letter)




                                               2

II.   BACKGROUND

NSF is an independent Agency established by the National Science Foundation Act of 1950 to
promote the progress of science; to advance the national health, prosperity, and welfare; and to
secure the national defense. NSF is the funding source for approximately 20% of all federally
supported basic research conducted by America’s colleges and universities. In many fields such
as mathematics, computer science, and the social sciences, NSF is the major source of Federal
funding. NSF also funds national research centers, state-of-the-art research facilities, and
USAP.

NSF does not operate its own laboratories or research facilities but rather acts as a catalyst
providing state-of-the-art tools and facilities and identifying the most capable people and
allowing them to pursue innovation.

One of NSF’s major programs is USAP. The Division of Polar Programs (part of the Directorate
for Geosciences, previously the Office of Polar Programs, or OPP) manages and initiates NSF
funding for basic research and operational support for USAP under a primary contract with
Lockheed Martin Corporation known as the Antarctic Support Contract (ASC). Operating under
extreme environmental and logistical conditions in Antarctica creates special challenges for
effective execution of USAP’s mission supporting scientific research, requiring extensive global
support and coordination of communications, personnel and supplies.

NSF has become increasingly dependent on computerized information systems to execute its
scientific research and operations and to process, maintain, and report essential information. As
a result, the reliability of computerized data and of the systems that process, maintain, and
report this data is a major priority for NSF. While the increase in computer interconnectivity has
changed the way the government does business, it has also increased the risk of loss and
misuse of information by unauthorized or malicious users. Protecting information systems
continues to be one of the most important challenges facing government organizations today.

Through FISMA, the U.S. Congress showed its intention to enhance the management and
promotion of electronic government services and processes. Its goals are to achieve more
efficient government performance, increase access to government information, and increase
citizen participation in government. FISMA also provides a comprehensive framework for
ensuring the effectiveness of security controls over information resources that support federal
operations and assets. It also codifies existing policies and security responsibilities outlined in
the Computer Security Act of 1987 and the Clinger Cohen Act of 1996.

NSF operates an open and distributed computing environment to facilitate collaboration and
knowledge sharing, and support its mission of promoting science, engineering research and
education. It faces the challenging task of maintaining this environment while protecting its
critical information assets against malicious use and intrusion.

The NSF Office of Inspector General (OIG) contracted with CLA to conduct NSF's FY 2013
FISMA Independent Evaluation. We performed this evaluation in conjunction with our review of
information security controls required as part of the annual financial statement audit issued on
December 12, 2013.




                                                3

III.    OBJECTIVES


The purposes of this evaluation were to assess the effectiveness of NSF's information security
program and practices and to determine compliance with the requirements of FISMA and
related information security policies, procedures, standards, and guidelines.


IV.     SCOPE & METHODOLOGY

To perform our review of NSF's security program, we followed a work plan based on the
following guidance:

       		 National Institute of Standards and Technology (NIST)’s Special Publication (SP) 800-
           53, Rev. 3, Recommended Security Controls for Federal Information Systems and
           Organizations for specification of security controls;
       		 NIST SP 800-37, Rev. 1, Guide for Applying the Risk Management Framework to
           Federal Information Systems: A Security Lifecycle Approach; and SP 800-53A Rev. 1,
           Guide for Assessing the Security Controls in Federal Information Systems and
           Organizations: Building Effective Security Assessment Plans for the assessment of
           security control effectiveness;
       		 Government Accountability Office (GAO)’s Federal Information System Controls Audit
           Manual (FISCAM: GAO-09-232G);
       		 CliftonLarsonAllen’s general controls review methodology. The combination of these
           methodologies allowed us to meet the requirements of both FISMA and the Chief
           Financial Officer (CFO)’s Act.

Our procedures included following-up on recommendations made in the FY 2012 Independent
Evaluation Report; performing internal and external security reviews of NSF's information
technology (IT) infrastructure; reviewing agency Plans of Action and Milestones (POA&Ms); and
evaluating the following subset of NSF's major systems as part of our three-year rotation
strategy:

       		 Core Financial System (FAS - Financial Accounting System) components:
              o		 Standard General Ledger
              o		 Budget Execution/Funds Management

       		 Awards/Grants Management System:
             o		 Electronic Jacket
             o		 Research.gov (ACM$ module only)

       		 Non-Financial & General Support Systems:
              o		 NSF Network (LAN), general controls only (no Vulnerability Assessment with
                  Penetration Testing)

       		 United States Antarctic Program:
              o		 USAP Enterprise Business System application (EBS)
              o		 USAP Enterprise Network General Support System              (GSS),   including
                  Vulnerability Assessment with Penetration Testing




                                                 4

We performed procedures to test (1) NSF’s implementation of an entity-wide security plan, and
(2) operational and technical controls specific to each application such as service continuity,
logical access, and change controls. We also performed targeted tests of controls over financial
and grant processing applications and processes. We performed our review from April 2013 to
September 30, 2013 at NSF's headquarters in Arlington, Virginia. Finally, we tested the USAP
EBS and GSS in July 2013 in Denver, Colorado.

NSF management and staff were very helpful and accommodating throughout this review and
assisted us in refining the recommendations. This independent evaluation was prepared based
on information available as of September 30, 2013.


V.   DETAILS OF RESULTS

     A. Prior Year Results

     The FY 2012 Independent Evaluation Report identified eight (8) findings, reported as other
     weaknesses (i.e., not significant enough to be reported as a significant deficiency in
     accordance with OMB classification guidelines). The following table summarizes the
     findings reported in FY 2012 and their current status:

                                                                             Current
          (FY – Finding #)    Description                                    Year
                                                                             Status
                06-01          The USAP “Advanced Revelation” suite of Reissued
                               applications needs to be replaced.
                06-02          USAP needs to develop, document and Reissued
                               implement a Disaster Recovery Plan for its
                               Antarctica operations.
                10-04          NSF needs to remove timely the information Reissued
                               technology (IT) accounts for separated
                               employees and contractors.
                10-05          NSF needs to improve security of its network Closed
                               topology as the present design poses a
                               potential security weakness.
                12-01          NSF needs to improve its patch Closed
                               management process for the timely
                               resolution and mitigation of logical security
                               vulnerabilities
                12-02          NSF needs to correct the USAP C&A Closed
                               documentation process to include required
                               elements
                12-03          USAP needs to review its System Security Reissued
                               Plans     for    consistency    with   NIST
                               requirements
                12-04          USAP needs to enforce NSF’s password and Reissued
                               account management policies consistently




                                               5

B. Current Year Results

The following table summarizes both the reissued/repeat and new findings noted as of
September 30, 2013. Note that this year’s Independent Evaluation Report includes
summarized versions of findings reported in a separate IT Management Letter (dated
December 12, 2013) prepared in conjunction with the audit of NSF’s FY 2013 financial
statements. We consider the management letter findings relevant to the FISMA report
since the specific conditions identified for NSF’s financial systems are also covered by
FISMA. Such findings carried forward from the IT management letter (identified as such
using the prefix “ML”) are distinguished from other security program weaknesses affecting
non-financial systems discussed in this report. The status shown for IT ML findings also
differs from that of FISMA-only findings in that they may appear as “Repeat” or Modified
Repeat”:

   (FY – Finding #)   Description                                Current Year Status
         06-01        The USAP “Advanced Revelation” suite       Reissued
                      of applications needs to be replaced.
         06-02        USAP needs to develop, document and        Reissued
                      implement a Disaster Recovery Plan for
                      its Antarctica operations.
         10-04        NSF needs to remove timely the             Reissued
                      information technology (IT) accounts for
                      separated employees and contractors.
         12-03        USAP needs to review its System            Reissued
                      Security Plans for consistency with
                      NIST requirements
         12-04        USAP needs to enforce NSF’s                Reissued
                      password and account management
                      policies consistently
       ML-12-07       NSF needs to address weaknesses in         Repeat
                      its IT accreditation packages
       ML-12-09       NSF needs to address weaknesses in         Modified Repeat
                      its IT identification and authorization
                      controls
       ML-12-10       NSF needs to address weaknesses in         Repeat
                      its IT configuration management
                      controls over baseline conformance
       ML-12-11       NSF needs to address weaknesses in         Modified Repeat
                      its IT configuration management
                      controls      over     ACM$      Change
                      Management
       ML-12-12       NSF needs to address weaknesses in         Modified Repeat
                      the NSF and USAP Incident Response
                      program
       ML-12-13       NSF needs to improve controls over IT      Repeat
                      account management
         13-01        USAP needs to improve controls over        New
                      policies and procedures
         13-02        USAP needs to improve configuration        New
                      management controls



                                         6

         (FY – Finding #)    Description                              Current Year Status
              13-03          USAP needs to complete MOUs/ISAs New
                             General Support System Local-Area
                             Network (GSS LAN) and Enterprise
                             Business          System         (EBS)
                             interconnections
               13-04         USAP needs to improve timeliness of New
                             system remediation based on scan
                             results
               13-05         USAP needs to improve account New
                             management controls
               13-06         USAP needs to improve assessment New
                             and authorization controls
               13-07         NSF Security Assessment Reports New
                             (SARs) need to identify consistently all
                             assessed risks
             ML-13-08        NSF needs to address weaknesses in New
                             role-based IT security awareness and
                             training

We have discussed these comments and suggestions with agency personnel, and we will be
pleased to discuss them in further detail at your convenience. We will review the status of these
comments during our subsequent year’s audit engagement.


VI.   FINDINGS AND RECOMMENDATIONS

06-01 The USAP “Advanced Revelation” Suite of Applications Needs to be Replaced.
(Re-Issued)

Operational support of scientific research through the United States Antarctic Program (USAP)
is the principal responsibility of the Division of Polar Programs (Polar, formerly the Office of
Polar Programs) and its contractor, Lockheed Martin Antarctic Support Contract (ASC). Prior to
the award of a new support contract on April 1, 2012 Raytheon Polar Services Company
(RPSC) was the main contractor. To provide this support, Polar depends on a complex array of
network systems and applications provided by the contractor, which are spread across nine
operating sites.

In FY 2006, we reported that the Advanced Revelation application (AREV) was outdated and
had inherent security weaknesses. USAP uses Disk Operating System (DOS)-based AREV on
Microsoft Windows platforms (i.e., native DOS programs, as there is no Windows version) to
process transactions on various applications including: (a) the Personnel Tracking System
(PTS) that manages USAP business processes involving Personally Identifiable Information
(PII), including hiring records, social security numbers (SSNs), and medical processing
checklists; (b) Cargo Tracking System (CTS) for tracking inventory to and from Antarctica; (c)
MAPCON, which provides inventory management and equipment-maintenance records; and (d)
Power 1000, a procurement and receiving subsystem.

AREV was developed using a programming language that is now outdated, and is becoming
increasingly difficult to interface with newer systems and platforms. Revelation Software has



                                               7

ceased development and maintenance of AREV. As a result, AREV is difficult to maintain and
may not function with newer technologies, which may reduce efficiency in NSF carrying out its
mission.

Security in this DOS-based environment is weak as users with access privileges on one
application in this suite can inappropriately or unnecessarily access several other applications.
In addition, continuity of operations cannot be ensured when confronted with forced hardware
changes and Local Area Network (LAN) operating system upgrades. Securing trained
personnel/vendors with the requisite expertise to support these antiquated systems will be
increasingly difficult.

In FY 2010, the Office of Polar Programs and USAP management analyzed the USAP
production environment and risks regarding the operation of the AREV application. As a result,
USAP planned to work on replacing the AREV system by Q4 FY 2014.

In FY 2013, Polar is actively working with its new contractor, Lockheed Martin ASC, to
determine the best strategy to replace AREV.

Recommendations (06-01):

We recommend, as we have previously (since FY 2006) that:

   		 NSF Division of Polar Programs replace the AREV suite of applications with a scalable,
       vendor-supported database management system.


06-02 USAP Needs to Develop, Document, and Implement a Disaster Recovery Plan for
its Antarctica Operations. (Re-Issued)

Contingency planning and disaster recovery refers to measures to recover IT services following
an emergency or system disruption. Interim measures may include 1) relocation of IT systems
and operations to an alternate site, 2) recovery of IT functions using alternate equipment, and 3)
performance of IT functions using manual methods.

IT systems are vulnerable to a variety of disruptions, ranging from mild (e.g., short-term power
outage, disk drive failure) to severe (e.g., equipment destruction, fire) from a variety of sources
such as natural disasters and terrorist actions. While many vulnerabilities may be minimized or
eliminated through technical, management, or operational solutions as part of the organization’s
risk management effort, it is virtually impossible to completely eliminate all risks. Effective
contingency planning, execution, and testing are essential to mitigate the risk of system and
service unavailability.

Beginning in FY 2006, we reported that:

   		 USAP did not have alternate wide area network links or an alternate network security
       perimeter location to continue mission network communications and general support
       systems in case the Denver operating location becomes unavailable.
   		 There was no alternate-site redundancy in key mission support information systems to
       ensure failsafe recovery in the event of an extended interruption at the central Denver
       data center.



                                                8

In FY 2010, OPP management completed strategic planning to mitigate the potential risk of
interruption to USAP program operations.

In FY 2013, the Division of Polar Programs is working with its new contractor, Lockheed Martin,
to determine the best strategy for contingency planning and disaster recovery. Implementation
is to be determined.

Recommendations (06-02)

We recommend, as we have previously (since FY 2006) that:

   		 NSF Division of Polar Programs implement its initiative to create alternate network
       connectivity in the event of an emergency. This connectivity should be in a geographic
       area that is unlikely to be affected negatively by the same disaster event as the
       organization’s primary site. In making this decision, NSF should consider other USAP
       operating locations already in use, in addition to established commercial providers of
       alternative site services (colocation facilities, data center hosting facilities, restoration
       network services, etc.).


10-04 NSF needs to remove information technology (IT) accounts for separated
employees on a timely basis. (Re-Issued)

We noted the following weaknesses in National Science Foundation (NSF)’s controls of
separated employees and contractors:

   		 Exit Clearance Forms were not appropriately completed for 6 of the 25 employees that
       we tested. Specifically, we noted the following:
           o		 3 of the Exit Forms were not signed by the Authorizing Official (AO) or the
               Contract Office’s Technical Representative (COTR).
           o		 3 of the forms were not completed within 2 business days of the employee's
               termination date in accordance with NSF procedures.
    Identity Management system (IDM) help desk tickets were not opened within 2 business
       days of the individual’s termination date for 6 of the 25 individuals.


    There was one (1) terminated individual identified that still had eJacket access.



Note: NSF formally closed the related POA&M on 7/1/2013. The above individuals terminated
before that date; however, some of them did not have their exit clearance process completed
until after July 1st, and the eJacket individual cited retained access after that date.

Recommendations (10-04):

We recommend, as we have previously (since FY 2010) that:

   NSF strengthen controls to ensure that clearance forms are properly completed and
    maintained for terminated employees and contractors.
   NSF ensure the system accounts of terminated users are deactivated timely.




                                                9

12-03 NSF needs to review USAP System Security Plans for consistency with NIST
requirements. (Re-Issued)

We noted the following weaknesses in the accreditation packages for the USAP Enterprise
Operations System (EOS), the USAP General Support System (GSS) and the USAP Enterprise
Business System (EBS):

The EOS System Security Plan (SSP) was not fully consistent with NIST SP 800-18 Rev. 1,
Guide for Developing Security Plans for Federal Information Systems and SP 800-53 Rev.3
requirements. For example, we noted the following:
        o		 The IA-5 control implementation did not address the server operating systems.
        o		 Control enhancement AC-17(5) was not addressed in the control implementation.
        o		 The CP-9(1) control implementation does not identify the organizationally defined
            frequency for testing backup information to verify media reliability and information
            integrity. The controls only state that Backup Exec tests media reliability at the
            conclusion of any backup job but that does not address the control requirement.
        o		 The RA-5 control implementation does not identify organizationally defined
            response times for remediating vulnerabilities.

   		 The USAP GSS System Security Plan (SSP) was not fully consistent with NIST SP 800-
       18 Rev. 1, Guide for Developing Security Plans for Federal Information Systems and SP
       800-53 Rev.3 requirements. For example, we noted the following:
        o		 The CP-9(1) control implementation does not identify the organizationally defined
            frequency for testing backup information to verify media reliability and information
            integrity. The controls only state that Backup Exec tests media reliability at the
            conclusion of any backup job but that does not address the control requirement.
        o		 The RA-5 control implementation does not identify organizationally defined
            response times for remediating vulnerabilities.
        o		 Some results from USAP Security Assessments documented in the Security
            Assessment Management Review (SAMR) workbook were not incorporated into
            the GSS System Security Plan. For example, the AU-1, MP-1, PS-1, PE-1, PS-1,
            and AC-6 controls status state that the controls are satisfied; however, there are
            weaknesses identified in the SAMR workbook for these controls.
        o		 The GSS SSP indicates credentialed scans do not cover all devices since they are
            limited to a sample of approximately 100 machines; however, USAP is actually
            performing credentialed scans on all machines.

   		 The USAP EBS System Security Plan (SSP) was not fully consistent with NIST SP 800-
       18 Rev. 1, Guide for Developing Security Plans for Federal Information Systems and SP
       800-53 Rev.3 requirements. For example, we noted the following:
        o		 The CP-9(1) control implementation does not identify the organizationally defined
            frequency for testing backup information to verify media reliability and information
            integrity. The controls only state that Backup Exec tests media reliability at the
            conclusion of any backup job but that does not address the control requirement.
        o		 The RA-5 control implementation does not identify organizationally defined
            response times for remediating vulnerabilities.
        o		 The IA-5 control enhancements and implementation states that passwords must be
            a minimum of 12 alphanumeric characters and the system prevents reuse of the
            previous 24 passwords; however, we found that the password length for POLAR
            ICE was set to a minimum of 8 instead of 12 alphanumeric characters. Additionally,
            POLAR ICE password history was set to remember 10 passwords instead of 24.


                                              10 

         o		 Interconnection Security Agreements (ISAs) have not been completed for the
             interconnections with HealthLink and UTMB; however, the CA-3 control
             implementation does not state that the ISAs are not in place.

Recommendations (12-03)

NIST SP 800-53 has been updated and Revision 4 was issued in April 2013. Federal agencies
are expected to comply by April 2014. Our recommendations have been updated with this in
mind.

We recommend that:

      NSF ensure the USAP EOS SSP is updated to be consistent with NIST SP 800-18 rev.1
       and 800-53 rev.4 Requirements.
      NSF ensure the USAP GSS SSP is updated to be consistent with NIST SP 800-18 rev.1
       and 800-53 rev.4 Requirements.
      NSF ensure the USAP EBS SSP is updated to be consistent with NIST SP 800-18 rev.1
       and 800-53 rev.4 Requirements.


12-04 NSF needs to enforce its password and account management policies at USAP.
(Re-Issued)

Password settings for POLAR ICE were not consistent with NSF policy. Specifically, we noted
the following:

   		 Password length was set to a minimum of 8 instead of 12 characters.
   		 Password history was set to remember 10 instead of 24 passwords.

Recommendations (12-04)

We recommend that:

   		 NSF ensure the USAP POLAR ICE password settings are consistent with defined NSF
       password standards


ML-12-07 (Repeat): Weaknesses in NSF IT Accreditation Packages

We noted the following weaknesses in the accreditation packages for NSF systems:

      The NSF Network System Security Plan (SSP) was not fully consistent with NIST SP
       800-18 rev.1 and SP 800-53 rev.3 requirements.
      The Research.gov System Security Plan (SSP) was not fully consistent with NIST SP
       800-18 rev.1 and SP 800-53 rev.3 requirements.
      The FAS System Security Plan (SSP) was not fully consistent with NIST SP 800-18
       rev.1 and SP 800-53 rev.3 requirements.
      The eJacket System Security Plan (SSP) was not fully consistent with NIST SP 800-18
       rev.1 and SP 800-53 rev.3 requirements.




                                             11 

NSF started a new streamlined certification and accreditation process (C&A), now Assessment
& Authorization (A&A), in FY 2010. The new process was designed to have all the controls
documented in the Cybersecurity Assessment and Management system (CSAM), and provide
summary documents to authorizing officials for approval. NSF staff first document all of the
controls and security testing results in CSAM, and then pull the information into the security
plans. When the information is not entered correctly into CSAM, or controls are not adequately
addressed, then incomplete and inaccurate information is transferred over to the actual security
plans, and may not be detected by plan reviewers, in turn negatively affecting the reliable review
of documentation in CSAM.

Weaknesses in A&A documentation increase the risk that appropriate security controls will not
be consistently applied. System resources may not be properly protected if risk is not properly
assessed and documented. Thus, NSF is exposed to increased risk of data modification or
deletion. Unauthorized changes could occur undetected. If the information contained in the
authorization package (i.e., the security plan, and the security assessment report) are not
appropriately updated, the authorizing official and the information system owner may not have
an up-to-date status of the security state of the information system and authorizing officials may
not have all of the information necessary to make an informed risk based authorization decision.

Recommendations (ML-12-07)

NIST SP 800-53 has been updated and Revision 4 was issued in April, 2013. Federal agencies
are expected to comply by April 2014. Our recommendations have been updated with this in
mind.

We recommend that:

      NSF enhance its review process to ensure the accuracy and completeness of its System
       Security Plans (SSP).
      NSF update the NSF Network SSP to be consistent with NIST 800-18 rev.1 and 800-53
       rev.4 requirements.
      NSF update the FAS SSP to be consistent with NIST 800-18 rev.1 and 800-53 rev.4
       requirements.
      NSF update the Research.gov SSP to be consistent with NIST 800-18 rev.1 and 800-53
       rev.4 requirements.
      NSF update the eJacket SSP to be consistent with NIST 800-18 rev.1 and 800-53 rev.4
       requirements.


ML-12-09 (Modified Repeat): Weaknesses in NSF IT Identification and Authentication
Controls

We note the following weaknesses in NSF’s identification and authentication controls for
information systems:

      Lightweight Directory Access Protocol (LDAP) password settings were not consistent
       with NSF policy.
      Password Settings for the Sybase database supporting FAS and eJacket were not
       consistent with NSF policy.
      Research.gov Oracle database password settings were not consistent with NSF policy.


                                               12 

   		 Password Settings for the Sybase database supporting ACM$ were not consistent with
       NSF policy.
   		 During the prior year audit, CLA noted weaknesses in specific password and account
       lockout settings for the Solaris operating system supporting Research.gov. As a part of
       our current year audit process, CLA was notified by NSF that corrective actions were still
       ongoing.

NSF is in the process of updating its baseline configuration requirements for its databases and
operating systems that include strong password controls. NSF plans to complete this process in
FY 2014.

Weaknesses in identification and authentication controls increase the risk that individuals may
obtain unauthorized access to NSF systems; thus putting systems and data at risk of
unauthorized disclosure, modification or destruction.

Recommendations (ML-12-09)

We recommend that:

      NSF ensure LDAP password settings are consistent with NSF password requirements.
      NSF ensure password settings for the Sybase database that support FAS and eJacket
       are consistent with NSF password and account lockout requirements.
   		 NSF ensure password settings for the research.gov Oracle and Sybase databases
       (including ACM$, which is implemented as a module within Research.gov using Sybase)
       and its supporting Solaris operating system are consistent with NSF password and
       account lockout requirements.


ML-12-10 (Repeat): Weaknesses in NSF IT Configuration Management Controls –
Baseline Conformance

We noted the following weaknesses in NSF’s configuration management controls:

      The production Sybase database that supports the FAS and eJacket applications was


       not configured in accordance with the documented Sybase Configuration Checklists.


      The production Sybase database that supports the ACM$ module was not configured in


       accordance with the documented Sybase Configuration Checklists.

NSF is in the process of updating its baseline configuration requirements for its Sybase
databases and implementing the baselines on its financial applications. NSF plans to complete
this process in FY 2014.

Weaknesses in configuration management controls increase the risk that system components
may not have security settings consistently applied thus putting the information systems and
data at risk. NSF may be exposed to increased risk of data modification or deletion.
Unauthorized changes could occur and go undetected.

Recommendations (ML-12-10):

We recommend that:


                                              13 

      NSF ensure the production Sybase database supporting the FAS and eJacket
       applications is configured in accordance with the approved baseline and any deviations
       are properly authorized and approved.
      NSF ensure the production Sybase database supporting the ACM$ module is configured
       in accordance with the approved baseline and any deviations are properly authorized
       and approved.


ML-12-11 (Modified repeat): Weaknesses in NSF IT Configuration Management Controls –
ACM$ Change Management

We noted weaknesses in NSFs controls for managing configuration changes to ACM$.

NSF’s procedures to implement its change control policies are not adequate, which leads to
incomplete documentation of the review and approval process for system changes. NSF uses
ClearQuest to document change requests. Approvals are not maintained in the NSF ClearQuest
system. NSF informed us that detailed changes were entered into ClearQuest for pending
changes to be included in the upcoming release; however, there are no approvals performed at
this time. We were informed that a collection of application releases with the selected change
requests are reviewed in a single Readiness Review presentation. However, change requests
should be approved and scheduled before changes are developed and tested.

Weaknesses in configuration management controls, including documentation of review and
approval, increases the risk that unauthorized changes may be implemented without going
through the appropriate change control process. Unapproved changes may adversely impact
the integrity and/or security of the application, which may lead to unauthorized transactions, or
modification or deletion of data.

Recommendations (ML-12-11):

We recommend that:

      NSF ensure change approvals are documented for all changes and that the approvals
       clearly indicate which changes are being approved.
      NSF ensure all of the appropriate approval signatures are documented for each change.

ML-12-12 (Modified repeat): Weaknesses in NSF and USAP Incident Response

There were weaknesses in the procedures both NSF and USAP followed for handling incidents.

Although NSF has documented its Computer Security Incident Response Plan and Procedures,
the requirements were not always followed. As a result, security incidents were not documented,
tracked and reported in line with the NSF procedures. The NSF procedures centralize the
incident response handling and reporting capability; however in practice, USAP has a level of
flexibility in handling and reporting incidents that was not documented within the current NSF
procedures.

Weaknesses in incident response controls increase the risk that incidents may not be reported
or resolved within NSF’s time frames, which may lead to unauthorized access to sensitive


                                               14 

information, and/or malicious modification or deletion of data or transactions. NSF may not be
able to correlate current incidents to past incidents to identify trends or widespread attacks.
Additionally lessons learned may not be incorporated into the incident response process to
enable management to improve the process.

Recommendations (ML-12-12):

We recommend that:

      NSF ensure all security incidents are consistently identified as such, and are
       documented and tracked within its incident tracking system.
      NSF ensure all security incidents are categorized in line with the US CERT Incident
       Categories.
      NSF ensure all applicable security incidents are reported to US CERT in a timely
       manner.
      NSF ensure USAP incidents are handled in accordance with the centralized incident
       handling process or formally document and implement alternative processes for USAP.


ML-12-13 (Repeat): Weaknesses in Account Management

We noted the following weaknesses in NSF’s account management controls:

      NSF does not maintain documentation evidencing the authorization and approval of
       eJacket access permissions.
      There are weaknesses in the NSF process for periodically recertifying access
       permissions for the Sybase databases supporting its financial applications.
      FAS access permissions were not consistent with the access e-mails for one (1) of the
       25 individuals tested.

NSF’s current process does not require Administrative Managers to maintain documentation
evidencing approvals for granting eJacket access permissions. Also, the recertification process
for Sybase databases did not include sending out a list of a database accounts. Individuals
requesting FAS access permissions are not always aware of the access that they are
requesting; as a result, the system administrators sometimes interpret the intention of requests
while granting access.

Weakness in account management controls increases the risk that users may have
unauthorized access to NSF systems and data.

Recommendations (ML-12-13):

We recommend that:

      NSF ensure authorization and approval of eJacket access permissions are documented
       and maintained.
      NSF strengthen controls to ensure that access permissions for the FAS, eJacket, and/or
       ACM$ Sybase databases are recertified periodically.
      NSF strengthen controls to ensure that the assigned access permissions for the FAS
       users are consistent with the approval emails that requested the access.


                                              15 

   		 NSF ensure the individuals responsible for approving FAS access permissions are
       aware of the meaning of the access permissions that they are requesting.
   		 NSF ensure administrative Officers (AO) are trained on the various FAS job classes and
       the actions that they allow an individual to perform. Additionally, system administrators
       should not interpret unclear access requests, and should instead have the AO resubmit
       an updated request after working with them to identify the specific access permissions
       needed.


13-01 USAP needs to improve controls over policies and procedures (New)

We noted weaknesses in USAP’s controls over policies and procedures. Specifically,

   		 Some USAP policies and procedures were not available for review when initially
       requested, though the missing policies and procedures were eventually provided
       (between 9/4/2013 and 9/6/2013) after we clarified the need to review documents
       actually in place during the year vs. those that were being updated and undergoing
       management review when initially requested in July 2013. Specifically, we noted the
       following policies and procedures that were not received in time to allow for appropriate
       testing:
            o		 Systems and Communications Protection
            o		 Systems and Information Integrity
            o		 System and Services Acquisition
            o		 System Maintenance
            o		 Media Protection and Sanitization
            o		 Policies and procedures for granting, removing and periodically reviewing Virtual
                Private Network (VPN) access for the USAP General Support System Local Area
                Network (GSS LAN)
            o		 USAP Policies and procedures for reviewing and disabling inactive accounts.

   		 There are weaknesses in the USAP Audit and Accountability Policies and Procedures.
       Specifically, we noted the following:
          o		 The USAP auditing policy and procedure documents are not finalized or
               authorized, nor do they have documented management commitment
          o		 USAP Security Auditing Policy does not facilitate implementation of all audit and
               accountability controls, including establishing a policy requirement for audit
               storage capacity and response to audit processing failures
          o		 The audit and accountability procedure IT-A-9309 QSP-System Auditing has not
               been reviewed/updated in accordance with the organizational defined frequency,
               “annually”
          o		 The list of events USAP information systems must be capable of auditing is not
               based on a risk assessment. Additionally, the subset of auditable events defined
               in AU-2 to be audited within the information system is not based on current threat
               information and ongoing assessment of risk.
          o		 The USAP policy does not define the frequency of auditing each identified event.

   		 The NSF Information Security Handbook has conflicting requirements for session locks.
       The Access Control Section of the document requires a session lock after 30 minutes of
       inactivity while the Security Control Parameters section lists the requirement at 15
       minutes.



                                              16 

Recommendations (13-01)

We recommend that:

   		 NSF ensure USAP policies and procedures for key IT controls are accessible and readily
       available.
   		 NSF ensure USAP finalizes, approves, and implements Audit and Accountability Policies
       and Procedures that adequately address risks in the USAP systems auditing
       environment. The procedures should address controls such as audit storage capacity
       and response to audit processing failures, list of auditable events based on risk
       assessment, and frequency of auditing each identified event.
   		 NSF update the Information Security Handbook to include the appropriate session lock
       settings.


13-02 USAP needs to improve configuration management controls (New)

We noted the following weaknesses in USAP’s configuration management controls:

   		 USAP does not test and validate some changes to the USAP GSS information system
       before implementing the changes on the operational system.
   		 USAP GSS system components (e.g., servers and networking devices with various
       operating systems) were not consistent with their standard configurations and
       unauthorized changes to configuration settings were not investigated.

Recommendations (13-02)

We recommend that:

      USAP test and validate all GSS changes to the information system before implementing
       the changes on the operational system.
      USAP ensure the GSS systems are configured in accordance with the approved
       standard configurations and any deviations are properly investigated and approved.


13-03 USAP needs to complete MOUs/ISAs General Support System Local-Area Network
(GSS LAN) and Enterprise Business System (EBS) interconnections (New)

USAP has not completed the implementation of interconnection security agreements (ISA) and
memoranda of understanding (MOU) for all USAP General Support System Local-Area Network
(GSS LAN) or Enterprise Business System (EBS) interconnections.

Recommendations (13-03)

We recommend that:

   		 NSF ensure ISAs and MOUs are documented for all external systems with
       interconnections to the USAP GSS and EBS systems.




                                            17 

13-04 USAP needs to improve timeliness of system remediation based on scan results
(New)

We noted the following weakness in USAP’s vulnerability assessment controls:

   		 Vulnerabilities noted from the scans of the USAP systems are not always remediated
       timely. For instance the June 2013 USAP IT Security Management Report showed that
       the corrective actions for resolving 85 moderate vulnerabilities were delayed. CLA scans
       performed during July 2013 identified 7 hosts with addressable (exploitable)
       vulnerabilities that could be addressed through timely patching.

Recommendations (13-04)

We recommend that:

   		 NSF ensure that vulnerabilities from the USAP scans are remediated within
       organizationally defined time periods.
   		 USAP consider modifying IS-SOP-9306 to require remediation of vulnerabilities
       designated ‘critical and high’ instead of ‘high and medium’ to align the procedure with
       current practices.


13-05 USAP needs to improve account management controls (New)

We noted the following weaknesses in USAP’s account management controls:

   		 Access permissions for the SHIELD application’s users were not appropriately
       authorized and approved. A USAP User Service Request form was not completed until
       8/29/2013 for 9 of the 10 users that we tested even though they had SHIELD access
       prior to 7/8/2013. The documentation provided showed 30 SHIELD users who were
       granted access to the system without having an initial approved user service request.
   		 Access forms or evidence of recertification was not available for 22 of the 25 POLAR
       ICE application users that we tested.
   		 The date that the USAP datacenter visitor logs were reviewed was not documented on
       the record provided; therefore, we could not establish whether the reviews were actually
       occurring on a quarterly basis.
   		 Details of the USAP datacenter access recertification were not provided for review.

Recommendations (13-05)

We recommend that:

      NSF ensure that USAP access permissions for SHIELD users are approved and
       documented.
      NSF ensure that USAP strengthens controls so access permissions for the POLAR ICE
       users are recertified and documented periodically.
      USAP document the date of review of data center access logs as part of the evidence to
       show that the logs are reviewed quarterly.
      USAP ensure that the datacenter access list is reviewed periodically and the details of
       the review documented.


                                             18 

13-06 USAP needs to improve assessment and authorization controls (New)

We noted the following weaknesses in USAP’s Assessment and Authorization controls.
Specifically, we noted the following:

   		 There was no evidence that all weaknesses identified in the USAP Security Assessment
       Reports, including items from the SAMR (Security Assessment Management Review
       workbook), are provided to the Authorizing Official (AO) or included in the plan of actions
       and milestones (POA&M) or in any other updates periodically provided to the AO.
   		 During the FY2013 audit, we noted that USAP has not completed corrective actions for
       NFR 12-04. USAP has documented an Acceptance of Residual Risk (AORR) for EOS
       subsystems that did not meet NSF password requirements and for EOS systems that
       used shared accounts; however there was no evidence that the AO explicitly accepted
       the risk.

Recommendations (13-06)

We recommend that:

   		 NSF ensure that all weaknesses identified in the USAP Security Assessment Reports,
       (SARs) including items from the SAMR, are provided to the designated NSF Authorizing
       Official so that he or she can decide which risks to accept.
   		 USAP ensure that the NSF Authorizing Official is provided with periodic security status
       reports to demonstrate that the effectiveness of security controls employed within and
       inherited by the system is monitored and communicated.
   		 NSF ensure that password settings for USAP EOS components are consistent with NSF
       password and account lockout requirements. Alternatively, if NSF proceeds with
       accepting the associated risks for EOS, the Authorizing Official should approve the
       Acceptance of Residual Risk (AORR) document.
   		 NSF ensure that individual accounts are used for all USAP EOS users or establish
       compensating controls to ensure individual accountability for actions performed with
       shared accounts. Alternatively, if NSF proceeds with accepting the associated risks for
       EOS, the Authorizing Official should approve the AORR document.


13-07 NSF Security Assessment Reports (SARs) need to identify consistently all
assessed risks (New)

We noted the following weaknesses in NSF’s Assessment and Authorization controls:

The NSF Network, FAS, Research.gov, and eJacket SARs, which document the risk
assessments, did not include all the risks that are applicable to the systems. Specifically,

   		 The SARs did not include 3 NSF open POA&Ms that are due to be closed on 9/30/2013.
       The open POA&Ms include Finding Nos. 12-07, 12-09, and 12-10.
   		 The SARs did not include the systemic risks associated with the kinds of vulnerabilities
       identified over time in weekly NSF vulnerability scans, such as computers with missing
       patches that have not yet been remediated despite availability of patches to address the
       vulnerabilities after an extended period of time. While SARs are not expected to be




                                               19 

       updated for each and every new vulnerability as found through ongoing scanning, they
       should identify where such unremediated vulnerabilities continue to be found over time

Recommendations (13-07)

We recommend that:

   		 NSF ensure the Risk Assessments documented in the Security Assessment Reports for
       NSF Network, FAS, Research.gov, and eJacket are updated to include all risks
       applicable to the systems, including those that may be derived from open vulnerabilities
       noted in POA&Ms and vulnerability scans.
   		 NSF ensure the Assessment and Authorization process for NSF Network, FAS,
       Research.gov, and eJacket includes consideration of all open risks noted in the
       POA&Ms and identified over time through ongoing vulnerability scans.


ML-13-08 (New) Weaknesses in NSF Role-based IT Security Awareness and Training

We noted the following weaknesses in NSF’s security awareness and role-based training
controls:

      Documentation was not available to show that Security Awareness Training was
       completed and Rules of Behavior were signed for 3 of the 25 individuals that we tested.
      NSF does not provide role-based security training for Authorizing Officials, system
       owners, security control assessors and IT Security Officers.

NSF is still in the process of implementing controls to strengthen their process for monitoring
users to ensure that they complete the annual security awareness training. Additionally, NSF
provides role based security training for system administrators; however the role based training
program has not been updated to include training requirements for additional individuals with
significant IT security responsibilities elsewhere in the security assessment and authorization
process, including Authorizing Officials, System Owners, Security Control Assessors, and IT
Security Officers.

Weakness in security awareness and role-based training controls increases the risk that users
may not be aware of their responsibilities for protecting NSF systems and data. This could result
in unauthorized access to NSF systems and data.

Recommendations (ML-13-08):

We recommend that:

   		 NSF strengthen controls to ensure that annual security awareness training is completed
       and rules of behavior forms are signed and maintained for all employees and contractors
       before they obtain access to NSF systems.
       NSF ensure Authorizing Officials, System Owners, Security Control Assessors, and IT
       Security Officers complete appropriate role-based security training.




                                               20 

VII. OTHER INFORMATION COMMUNICATED TO MANAGEMENT


We conducted internal and external vulnerability assessments and penetration testing on USAP
systems located in Denver, Colorado in July, 2013, in accordance with formal Rules of
Engagement agreed upon with NSF management. We performed this testing to identify possible
weaknesses in USAP’s logical security controls and to attempt to exploit discovered
vulnerabilities and to determine the degree of control an attacker could achieve after a
successful penetration. During our assessment, we discovered live, accessible hosts residing
on internal USAP networks and conducted overt and covert vulnerability assessments on IP
addresses in use. We sought approval prior to exploiting discovered vulnerabilities, but did not
conduct additional testing based on the identified exploitable vulnerabilities. We then advised
management in a separate document on corrective actions to strengthen its environment
further.




                                              21 

VIII. EXHIBIT A – AGENCY COMMENTS






                                      22 

